202FV1-0120

CARD AGREEMENT
This Card Agreement is your contract with us. It governs the use
of your card and account. The Supplemental Pricing Information
(“Supplement”) is part of this Agreement. Please read this
Agreement, including the Supplement, carefully. Keep them for
your records.

Definitions
account means the relationship established between you and us
by this Agreement.
A P R means an annual percentage rate.
authorized user means any person you allow to use your account.
card means one or more cards or other access devices that
we give you to get credit under this Agreement. This includes
account numbers.
we, us, and our mean Citibank, N.A., the issuer of your account.
Citibank, N.A. is located in Sioux Falls, SD.
you, your, and yours mean the person who applied to open
the account. It also means any other person responsible for
complying with this Agreement.

Your Account
You agree to use your account in accordance with this Agreement.
You must pay us for all amounts due on your account. This Agreement
is binding on you unless you close your account within 30 days after
receiving the card and you have not used or authorized use of the
card. Your account must only be used for lawful transactions.
Authorized Users. You may request additional cards for
authorized users. You must pay us for all charges made by
authorized users. You must pay us even if you did not intend to be
responsible for those charges. You must notify us to withdraw any
permission you give to an authorized user to use your account.
Joint Accounts. If this is a joint account, each of you is
responsible individually and together for all amounts owed. Each of
you is responsible even if the account is used by only one of you.
You will continue to be liable for the entire balance of the account,
even if your co-applicant is ordered by a court to pay us. You will

1

remain liable to us if your co-applicant fails to pay as ordered by
the court. Your account status will continue to be reported to the
credit bureau under each of your names. The delivery of notices
or billing statements to either of you serves as delivery to each of
you. We may rely on instructions given by either of you. We are not
liable to either of you for relying upon such instructions.
Credit Limit. Your initial credit limit is on the card carrier. After
that, your credit limit appears on your billing statement. The full
amount of your credit limit is available to use where the card is
honored. We may reduce or increase your credit limit at any time
for any reason as permitted by law. We will notify you of any
change, but the change may take effect before you receive the
notice. You should always keep your total balance below the credit
limit. However, if the total balance goes over your credit limit you
still must pay us. If your account has a credit balance, we may
reduce the credit balance by any new charges on your account.
You may not maintain a credit balance in excess of your credit limit.
Billing Statement. Your billing statement shows the New
Balance. This is the total amount you owe us on the Statement
Closing Date. To determine the New Balance, we begin with
the total balance at the start of the billing cycle. We add any
purchases. We subtract any credits or payments. We then add
any interest charges or fees and make other adjustments.
Your billing statement also shows your transactions; the Minimum
Payment Due and payment due date; your credit limit; and your
interest charges and fees.
We deliver a billing statement to only one address. You must
notify Customer Service of a change in address. We may stop
sending you statements if we deem your account uncollectible or
start collection proceedings; but we may continue to add interest
and fees as permitted by law.

APR
Variable A P R Based on Prime. See the Supplement for
information about the A P RS that apply to your account. If any
A P R is based on the U.S. Prime Rate (“Prime Rate”), the A P R
will equal the Prime Rate plus an additional amount. If the Prime
Rate increases, it will cause the A P R to increase. If the Prime Rate
decreases, it will cause the A P R to decrease. For each billing cycle

2

we use the Prime Rate published in The Wall Street Journal two
business days before the Statement Closing Date. If the Prime Rate
causes an A P R to change, we put the new A P R into effect as of
the first day of the billing cycle for which we calculate the A P R.
We apply the new A P R to any existing balances, subject to any
promotional rate that may apply. If The Wall Street Journal does not
publish the Prime Rate, we will use a similar published rate.
Effect of A P R Increases. If an A P R increases, interest charges
increase. Your minimum payment may increase as well.

Promotions
We may offer promotional terms for all or a part of any balances.
Any promotional terms may apply for a limited period of time.
They will be governed by the terms of the promotional offer
and this Agreement. Your promotional terms will end when the
promotional period expires.
If a promotional offer is a deferred interest offer, no interest
charges will be imposed on the deferred interest balance if you
pay the balance in full by the end of the promotional period for
that deferred interest balance. We will impose interest charges
on the deferred interest balance at the A P R for regular purchases
from the date of purchase if you do not pay the balance in full by
the end of the promotional period.

Interest Charges Based on A P Rs
Interest Charges. We impose interest charges when we apply
APRs to your account balances. We do this every day by using a
daily periodic rate. To get a daily periodic rate, we divide the APR
by 365.
When Interest Charges Begin. We begin to impose interest
charges the first day we add a charge to a daily balance. The
charges we add to a daily balance include purchases interest charges
and fees. We continue to impose interest charges until we credit your
account with full payment of the total amount you owe us.
Grace Period on Purchases. You can avoid interest charges on
purchases. This is called a grace period on purchases. The grace
period is at least 25 days. To get a grace period on purchases, you
must pay the New Balance by the payment due date every billing
cycle. If you do not, you will not get a grace period until you pay the
New Balance for two billing cycles in a row.
3

202FV1-0120
If you have a balance subject to a deferred interest or a 0% APR
promotion and that promotion does not expire before the payment
due date, that balance (an “excluded balance”) is excluded from the
amount you must pay in full to get a grace period on a purchase
balance other than an excluded balance. However, you must still pay
any separately required payment on the excluded balance. In billing
cycles in which payments are allocated to deferred interest balances
first, the deferred interest balance will be reduced before any other
balance on the account. However, you will continue to get a grace
period on purchases, other than an excluded balance, so long as
you pay the New Balance (less any excluded balance, plus any
separately required payment on an excluded balance) in full by the
payment due date each billing cycle.
In addition, certain promotional offers may take away the grace
period on purchases. Other promotional offers not described
above may also allow you to have a grace period on purchases
without having to pay all or a portion of the promotional balance
by the payment due date. If either is the case, the promotional
offer will describe what happens.
Calculation of Interest Charges – Daily Balance Method
(Including Current Transactions). We calculate interest
charges each billing cycle. To do this:
• We start with each of your different balances. These balances
include, for example, regular purchases, and different
promotional balances. (When we calculate interest charges,
we treat each deferred interest transaction separately even if it
has the same terms as another deferred interest transaction.)
• We calculate the daily balance for each of your different
balances. To get a daily balance, we start with the balance as
of the end of the previous day. We add any interest charge on
the previous day’s balance. (This results in daily compounding
of interest charges.) We add any new charges. We then
subtract any new credits or payments.
• We multiply each daily balance by the daily periodic rate that
applies to it. We do this for each day in the billing cycle. This gives
us the daily interest charges for each of your different balances.
• We add up all the daily interest charges. The sum is the total
interest charge for the billing cycle.

4

• You authorize us to round interest charges to the nearest cent.
When we calculate daily balances, we add a purchase as of the
Transaction Date. The Transaction Date is shown on the billing
statement. We subtract a payment or credit as of the day it is
credited to the account and then make other adjustments. We
treat a credit balance as a balance of zero.
Minimum Interest Charge. If we charge you interest, the
charge will be no less than $2. We add the charge to the regular
purchase balance or allocate it among one or more of the
balances that accrues interest.
Balance Subject to Interest Rate. Your statement shows a
Balance Subject to Interest Rate. It shows this for each different
balance. The Balance Subject to Interest Rate is the average of the
daily balances during the billing cycle. A billing cycle begins on the
day after the Statement Closing Date of the previous billing cycle. It
includes the Statement Closing Date of the current billing cycle.

Fees
Late Fee. We may add a late fee for each billing cycle in which
you have a past due payment. For late fee purposes, you have a
past due payment any time you fail to pay the Minimum Payment
Due by the payment due date. The fee will be $29; or $40 for any
additional past due payment during the next six billing cycles after
a past due payment. However, the fee will not exceed the amount
permitted by law. We add this fee to the regular purchase balance.

Payments
Making Payments. You may pay all or part of your account balance
at any time. However, you must pay at least the Minimum Payment
Due by the payment due date each billing cycle. The sooner you pay
the New Balance, the less you will pay in interest charges.
We calculate the Minimum Payment Due as follows. We begin
with any past due amount. We add any amount specified in a
promotional offer. We add any amount required by the Promotion
Calculation. We also add the largest of the following:
• The Calculated New Balance if it is less than $29;
• $29 if the Calculated New Balance is at least $29; or
• 1% of the Calculated New Balance plus the amount of your
billed interest charges on that balance, any minimum interest
5

charge allocated to that balance, and any applicable late fee.
(The result is rounded up to the nearest dollar.) However,
we subtract interest charges that accrued during prior billing
cycles on a deferred interest balance that ended during the
billing cycle covered by the statement.
The Calculated New Balance equals the New Balance on
the billing statement less balances subject to the Promotion
Calculation and less any balances subject to either of two types
of promotional terms. The first type are terms that do not require
a minimum payment. The second type are terms that require an
additional amount as part of the Minimum Payment Due.
If you have a deferred interest transaction balance subject to
the Promotion Calculation, the Promotion Calculation will equal
1% of this balance during the promotion period. (The result is
rounded up to the nearest cent.) After the promotion period,
any such remaining promotional balance will be included in the
Calculated New Balance. The Promotion Calculation will apply
if, based on the amount of the transaction as shown on the first
statement that displays the transaction and the dollar amount in
the Minimum Payment Due calculation in effect at the time of the
transaction, we determined that paying such dollar amount each
billing cycle would result in repayment of the promotional balance
before the end of the promotion period.
The Minimum Payment Due may reflect adjustments to the
New Balance. The Minimum Payment Due is never more than
the Calculated New Balance plus two amounts. The first is
any amount required by a promotional offer. The second is any
amount required by the Promotion Calculation.
Application of Payments. Payments in excess of the Minimum
Payment Due are applied in accordance with law. This means that
we will generally apply payments in excess of the Minimum Payment
Due to higher AP R balances first. However, excess payments
received before a deferred interest promotion expires are applied to
the deferred interest promotional balance first in the last two billing
cycles of the promotional period. And, if the expiration date of a
deferred interest promotion is before the payment due date in the
billing cycle in which the deferred interest promotion expires, excess
payments received before the deferred interest promotion expires
are applied to the deferred interest promotional balance first in the
6

202FV1-0120
last three billing cycles of the promotional period. Payments equal to
or less than the Minimum Payment Due and credits are applied at
our discretion and you authorize us to apply payments and credits in
a way that is most favorable or convenient for us. This may include
applying such payments and credits to lower APR balances first.
Payment Instructions. We credit your payments in accordance
with our payment instructions on the billing statement. You must
pay us in U.S. dollars. To do so, you must use a check, similar
instrument, or electronic debit that is drawn on and honored by a
bank in the U.S. Do not send cash. We can accept late or partial
payments, or payments that reflect “paid in full” or other restrictive
endorsements, without losing our rights. We also reserve the right
to accept payments made in foreign currency and instruments
drawn on funds on deposit outside the U.S. If we do, we select
the currency conversion rate. We will then credit your account in
U.S. dollars after deducting any costs incurred in processing your
payment. Or we may bill you separately for these costs.

Credit Reporting
We may report information about your account to credit bureaus.
Late payments, missed payments, or other defaults on your
account may be reflected in your credit report. We may report
account information in your name and the names of authorized
users. We may also obtain follow-up credit reports on you.
If you think we reported incorrect information to a credit
bureau, write us at the Customer Service address on the billing
statement. We will investigate the matter. We will then tell you
if we agree or disagree with you. If we agree with you, we will
contact each credit bureau to which we reported and request a
correction. If we disagree with you, we will tell you that.

Information Sharing
You authorize us to share information about you as permitted by
law. This includes information we get from you and others. It also
includes information about your transactions with us. Please see our
Privacy Notice for details about our information sharing practices.

Changes to this Agreement

add, replace, or remove provisions of this Agreement. We will
give you advance written notice of the changes and a right to
opt out to the extent required by law.

Default
You default under this Agreement if you fail to pay the Minimum
Payment Due by its due date; go over your credit limit; pay by a
check or similar instrument that is not honored or that we must
return because it cannot be processed; pay by electronic debit
that is returned unpaid; file for bankruptcy; or fail to comply with
the terms of this Agreement. If you default, we may close your
account and, to the extent permitted by law, demand immediate
payment of the total balance.

Refusal of the Card, Closed Accounts,
and Related Provisions
Refusal of the Card. We do not guarantee approval of
transactions. We are not liable for transactions that are not approved.
That is true even if you have enough credit. We may limit the
number of transactions approved in one day. If we detect unusual or
suspicious activity, we may suspend your credit privileges.
Preauthorized Charges. We may suspend any automatic or
other preauthorized card charges you arrange with a third party.
We may do this if you default; if the card is lost or stolen; or
we change your account for any reason. If we do this, you are
responsible for paying the third party directly if you wish to do so.
You are also responsible for reinstating the preauthorized charges
if you wish to do so and we permit it.
Lost or Stolen Cards or Account Numbers. You must call us
if any card or account number is lost or stolen. You must also
call us if you think someone used or may use them without
permission. When you call, we may require you to provide
information to help our investigation. We may require you to
provide this information in writing. For example, we may ask you
to identify any charges that were not made by you or someone
authorized by you. We may also ask you to confirm that you
received no benefit from those charges.

We may change the rates, fees, and terms of this Agreement
from time to time as permitted by law. The changes may

7

8

Closing Your Account. You may close your account by notifying
us in writing or over the phone. If you close your account,
you must still repay the total balance in accordance with this
Agreement. We may also close your account or suspend account
privileges at any time for any reason. We may do this without
prior notice to you. We may also reissue a different card at any
time. You must return any card to us upon request.

Protections for Active Duty Service
Members and Their Dependents
Protections. Federal law provides important protections to
members of the Armed Forces and their dependents relating
to extensions of consumer credit. In general, the cost of
consumer credit to a member of the Armed Forces and his
or her dependent may not exceed an annual percentage
rate of 36 percent. This rate must include, as applicable to
the credit transaction or account: The costs associated with
credit insurance premiums; fees for ancillary products sold
in connection with the credit transaction; any application fee
charged (other than certain application fees for specified credit
transactions or accounts); and any participation fee charged
(other than certain participation fees for a credit card account).
You are entitled to these protections if you are a Covered
Borrower, as defined below.
Covered Borrower. You are a Covered Borrower if, in connection
with the opening of your account, we determine you are an active
duty member of the Armed Forces (including active Guard and
Reserve duty) or a dependent of an active duty member. You
will cease to be a Covered Borrower if we determine you are no
longer an active duty member of the Armed Forces (including
active Guard and Reserve duty) or a dependent of an active duty
member.
Oral Disclosures. If you are a Covered Borrower, you may obtain
information related to your account, including information about
these protections and your payment obligation, by calling 1-877625-6379.
Arbitration. The section of the Card Agreement entitled
“ARBITRATION” does not apply if you are a Covered
Borrower at the time your account is opened.

9

202FV1-0120

ARBITRATION
PLEASE READ THIS PROVISION OF THE AGREEMENT
CAREFULLY.
THIS SECTION PROVIDES THAT DISPUTES MAY BE RESOLVED
BY BINDING ARBITRATION. ARBITRATION REPLACES THE
RIGHT TO GO TO COURT, HAVE A JURY TRIAL OR INITIATE
OR PARTICIPATE IN A CLASS ACTION. IN ARBITRATION,
DISPUTES ARE RESOLVED BY AN ARBITRATOR, NOT A
JUDGE OR JURY. ARBITRATION PROCEDURES ARE SIMPLER
AND MORE LIMITED THAN IN COURT. THIS ARBITRATION
PROVISION IS GOVERNED BY THE FEDERAL ARBITRATION
ACT (F A A), AND SHALL BE INTERPRETED IN THE BROADEST
WAY THE LAW WILL ALLOW.

Covered claims
• You or we may arbitrate any claim, dispute or controversy
between you and us arising out of or related to your account, a
previous related account or our relationship (called “Claims”).
• If arbitration is chosen by any party, neither you nor we
will have the right to litigate that Claim in court or have a
jury trial on that Claim.
Except as stated below, all Claims are subject to arbitration,
no matter what legal theory they’re based on or what remedy
(damages, or injunctive or declaratory relief) they seek, including
Claims based on contract, tort (including intentional tort), fraud,
agency, your or our negligence, statutory or regulatory provisions,
or any other sources of law; Claims made as counterclaims,
cross-claims, third-party claims, interpleaders or otherwise; Claims
made regarding past, present, or future conduct; and Claims made
independently or with other claims. This also includes Claims made
by or against anyone connected with us or you or claiming through
us or you, or by someone making a claim through us or you, such
as a co-applicant, authorized user, employee, agent, representative
or an affiliated/parent/subsidiary company.

Arbitration limits
• Individual Claims filed in a small claims court are not subject to
arbitration, as long as the matter stays in small claims court.

10

• We won’t initiate arbitration to collect a debt from you unless
you choose to arbitrate or assert a Claim against us. If
you assert a Claim against us, we can choose to arbitrate,
including actions to collect a debt from you. You may arbitrate
on an individual basis Claims brought against you, including
Claims to collect a debt.
• Claims brought as part of a class action, private attorney
general or other representative action can be arbitrated only
on an individual basis. The arbitrator has no authority to
arbitrate any claim on a class or representative basis and may
award relief only on an individual basis. If arbitration is chosen
by any party, neither you nor we may pursue a Claim as part
of a class action or other representative action. Claims of 2 or
more persons may not be combined in the same arbitration.
However, applicants, co-applicants, authorized users on a
single account and/or related accounts, or corporate affiliates
are here considered as one person.

How arbitration works
• Arbitration shall be conducted by the American Arbitration
Association (“A A A”) according to this arbitration provision and
the applicable A A A arbitration rules in effect when the claim is
filed (“A A A Rules”), except where those rules conflict with this
arbitration provision. You can obtain copies of the A A A Rules at
the A A A’s website (w w w . a d r . org) or by calling 800-778-7879.
You or we may choose to have a hearing, appear at any hearing
by phone or other electronic means, and/or be represented by
counsel. Any in-person hearing will be held in the same city as
the U.S. District Court closest to your billing address.
• Arbitration may be requested any time, even where there is a
pending lawsuit, unless a trial has begun or a final judgment
entered. Neither you nor we waive the right to arbitrate by
filing or serving a complaint, answer, counterclaim, motion, or
discovery in a court lawsuit. To choose arbitration, a party may
file a motion to compel arbitration in a pending matter and/or
commence arbitration by submitting the required A A A forms
and requisite filing fees to the A  A  A.

11

• he arbitration shall be conducted by a single arbitrator in
accord with this arbitration provision and the A A A Rules,
which may limit discovery. The arbitrator shall not apply any
federal or state rules of civil procedure for discovery, but the
arbitrator shall honor claims of privilege recognized at law and
shall take reasonable steps to protect account information
and other confidential information of either party if requested
to do so. The arbitrator shall apply applicable substantive law
consistent with the FA A and applicable statute of limitations,
and may award damages or other relief under applicable law.
• The arbitrator shall make any award in writing and, if requested
by you or us, may provide a brief statement of the reasons for
the award. An arbitration award shall decide the rights and
obligations only of the parties named in the arbitration, and shall
not have any bearing on any other person or dispute.

Paying for arbitration fees
• We will pay your share of the arbitration fee for an arbitration of
Claims of $75,000 or less if they are unrelated to debt collection.
Otherwise, arbitration fees will be allocated according to the
applicable A A A Rules. If we prevail, we may not recover our
arbitration fees, unless the arbitrator decides your Claim was
frivolous. All parties are responsible for their own attorney’s fees,
expert fees and any other expenses, unless the arbitrator awards
such fees or expenses to you or us based on applicable law.

The final award
• Any award by an arbitrator is final unless a party appeals it in
writing to the A A A within 30 days of notice of the award. The
arbitration appeal shall be determined by a panel of 3 arbitrators.
The panel will consider all facts and legal issues anew based
on the same evidence presented in the prior arbitration, and will
make decisions based on a majority vote. Arbitration fees for the
arbitration appeal shall be allocated according to the applicable
A A A Rules. An award by a panel on appeal is final. A final
award is subject to judicial review as provided by applicable law.

Survival and Severability of Terms
This arbitration provision shall survive changes in this Agreement and
termination of the account or the relationship between you and us,

12

202FV1-0120
including the bankruptcy of any party and any sale of your account,
or amounts owed on your account, to another person or entity. If any
part of this arbitration provision is deemed invalid or unenforceable,
the other terms shall remain in force, except that there can be no
arbitration of a class or representative Claim. This arbitration provision
may not be amended, severed or waived, except as provided in this
Agreement or in a written agreement between you and us.

the back of your card. You can also call local or toll-free Directory
Assistance to get our telephone number.

Rules for rejecting this arbitration provision

What To Do If You Find A Mistake On Your Statement

You may reject this arbitration provision by sending a written
rejection notice to us at: P.O. Box 790340, St. Louis, MO
63179. Your rejection notice must be mailed within 45 days
of account opening. Your rejection notice must state that you
reject the arbitration provision and include your name, address,
account number and personal signature. No one else may sign
the rejection notice. Your rejection notice will not apply to the
arbitration provision(s) governing any other account(s) that you
have or had with us. Rejection of this arbitration provision won’t
affect your other rights or responsibilities under this Agreement,
including use of the account.

Your Billing Rights:
Keep this Document for Future Use
This notice tells you about your rights and our responsibilities
under the Fair Credit Billing Act.
If you think there is an error on your statement, write to us at the
address for billing inquiries and correspondence shown on the
front of your statement.
In your letter, give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your
bill, describe what you believe is wrong and why you believe it
is a mistake.
You must contact us:

Governing Law and Enforcing our Rights

• Within 60 days after the error appeared on your statement.

Governing Law. Federal law and the law of South Dakota, where we
are located, govern the terms and enforcement of this Agreement.

• At least 3 business days before an automated payment is
scheduled, if you want to stop payment on the amount you
think is wrong.

Enforcing this Agreement. We will not lose our rights under
this Agreement because we delay in enforcing them or fail to
enforce them.
Collection Costs. To the extent permitted by law, you are liable
to us for our legal costs if we refer collection of your account
to a lawyer who is not our salaried employee. These costs may
include reasonable attorneys’ fees. They may also include costs
and expenses of any legal action.
Assignment. We may assign any or all of our rights and
obligations under this Agreement to a third party.

For Further Information
Call us toll-free for further information. Call the toll-free Customer
Service telephone number shown on the billing statement or on

13

You must notify us of any potential errors in writing. You may call
us, but if you do we are not required to investigate any potential
errors and you may have to pay the amount in question.

What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that
we received your letter. We will also tell you if we have already
corrected the error.
2. Within 90 days of receiving your letter, we must either correct
the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:

14

• We cannot try to collect the amount in question, or report you
as delinquent on that amount.
• The charge in question may remain on your statement, and we
may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are
responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in
question or any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay
the amount in question, along with applicable interest and
fees. We will send you a statement of the amount you owe
and the date payment is due. We may then report you as
delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong,
you must write to us within 10 days telling us that you still refuse
to pay. If you do so, we cannot report you as delinquent without
also reporting that you are questioning your bill. We must tell you
the name of anyone to whom we reported you as delinquent, and
we must let those organizations know when the matter has been
settled between us.
If we do not follow all of the rules above, you do not have to
pay the first $50 of the amount you question even if your bill is
correct.

Your Rights If You Are Dissatisfied
With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have
purchased with your credit card, and you have tried in good faith
to correct the problem with the merchant, you may have the right
not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state or
within 100 miles of your current mailing address, and the
purchase price must have been more than $50. (Note: Neither

15

202FV1-0120
of these are necessary if your purchase was based on an
advertisement we mailed to you, or if we own the company
that sold you the goods or services.)
2. You must have used your credit card for the purchase.
Purchases made with cash advances from an A T M or with a
check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the
purchase, contact us in writing at the address for billing inquiries and
correspondence shown on the front of your statement.
While we investigate, the same rules apply to the disputed
amount as discussed above. After we finish our investigation,
we will tell you our decision. At that point, if we think you owe an
amount and you do not pay, we may report you as delinquent.
© 2020 Citibank, N.A.
202FV1-0120

16

